CERTIFICATE OF SERVICE
NO. 19-114
Douglas Ciolek
Petitioner(s)
v.
State of New Jersey
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the STATE
OF NEW JERSEY BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
Douglas F. Ciolek
Petitioner, Pro Se
4 North Ridge Road
Denville, NJ 07834
(973) 206-2500
dciolek@rrjhlaw.com
Counsel for Petitioner

Gurbir Singh Grewal
Office of the Attorney General of New Jersey
RJ Hughes Justice Complex
25 Market Street, Box 080
Trenton, NJ 08625-0080
(609) 292-4925
stuart.feinblatt@law.njoag.gov
Chief Law Officer of the State of New Jersey

Lucas DeDeus

August 22, 2019
SCP Tracking: McNamara,

Jr.-Morris County Prosecutor’s Office-Cover Orange

